<html>
<title> - BUSINESS MEETING</title>
<body><pre>[Senate Hearing 116-216]
[From the U.S. Government Publishing Office]


                                                        S. Hrg. 116-216

                            BUSINESS MEETING

=======================================================================

                                MEETING

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS

                          UNITED STATES SENATE

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION
                               __________

                             JUNE 19, 2019
                               __________
  
  
    Printed for the use of the Committee on Environment and Public Works
    

                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT] 
                                    
                 
        Available via the World Wide Web: http://www.govinfo.gov
               
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
40-529 PDF               WASHINGTON : 2020               
               
               
               
               
               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                     ONE HUNDRED SIXTEENTH CONGRESS

                             FIRST SESSION

                    JOHN BARRASSO, Wyoming, Chairman
JAMES M. INHOFE, Oklahoma            THOMAS R. CARPER, Delaware, 
SHELLEY MOORE CAPITO, West Virginia      Ranking Member
KEVIN CRAMER, North Dakota           BENJAMIN L. CARDIN, Maryland
MIKE BRAUN, Indiana                  BERNARD SANDERS, Vermont
MIKE ROUNDS, South Dakota            SHELDON WHITEHOUSE, Rhode Island
DAN SULLIVAN, Alaska                 JEFF MERKLEY, Oregon
JOHN BOOZMAN, Arkansas               KIRSTEN GILLIBRAND, New York
ROGER WICKER, Mississippi            CORY A. BOOKER, New Jersey
RICHARD SHELBY, Alabama              EDWARD J. MARKEY, Massachusetts
JONI ERNST, Iowa                     TAMMY DUCKWORTH, Illinois
                                     CHRIS VAN HOLLEN, Maryland

              Richard M. Russell, Majority Staff Director
              Mary Frances Repko, Minority Staff Director




                            C O N T E N T S

                              ----------                              
                                                                   Page

                             JUNE 19, 2019
                           OPENING STATEMENTS

Barrasso, Hon. John, U.S. Senator from the State of Wyoming......     1
Carper, Hon. Thomas R., U.S. Senator from the State of Delaware..     2

                              LEGISLATION

Nomination References and Reports:
    PN718, nomination of Robert Wallace, of Wyoming, to be 
      Assistant Secretary for Fish and Wildlife..................     9
    PN491, nomination of William B. Kilbride, of Tennessee, to be 
      a Member of the Board of Directors of the Tennessee Valley 
      Authority..................................................    10
Bills:
    S. 1345, A bill to amend and reauthorize the Morris K. Udall 
      and Stewart L. Udall Foundation Act........................    11
    S. 1833, Restore the Harmony Way Bridge Act..................    24
    S. 1014, Route 66 Centennial Commission Act..................    26
    S. 349, Reviving America's Scenic Byways Act of 2019 
      (substitute)...............................................    39
    S. 1507, PFAS Release Disclosure and Protection Act of 2019 
      (substitute)...............................................    42
    S. 1689, A bill to transfer certain funds from the clean 
      water revolving fund of a State to the drinking water 
      revolving fund of a State..................................   101
General Services Administration Resolutions......................   105

                          ADDITIONAL MATERIAL

Letter to Senator Carper from the Orange County Water District, 
  June 19, 2019..................................................   161

 
                            BUSINESS MEETING

                              ----------                              


                        WEDNESDAY, JUNE 19, 2019

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:34 a.m. in room 
406, Dirksen Senate Building, Hon. John Barrasso (Chairman of 
the Committee) presiding.
    Present: Senators Barrasso, Carper, Inhofe, Capito, Cramer, 
Braun, Rounds, Sullivan, Boozman, Wicker, Ernst, Cardin, 
Whitehouse, Booker, and Van Hollen.

           OPENING STATEMENT OF HON. JOHN BARRASSO, 
             U.S. SENATOR FROM THE STATE OF WYOMING

    Senator Barrasso. Good morning. I call this business 
meeting to order.
    Today, we are going to consider two nominees, six bills, 
and 38 General Services Administration resolutions. We will 
consider three of the GSA resolutions that we noticed on Friday 
at a later date.
    Senator Carper and I have agreed that we will begin voting 
at 9:40. At that time, I will call up the items on the agenda. 
We will not debate the items on the agenda while we are voting. 
Instead, we will debate the items on the agenda before we begin 
voting at 9:40. I will also be happy to recognize any members 
who still wish to speak after the voting concludes.
    We will consider two nominations, Rob Wallace to be 
Assistant Secretary for Fish, Wildlife, and Parks at the 
Department of the Interior; and William Kilbride to be a member 
of the Board of Directors of the Tennessee Valley Authority.
    The full Committee held a hearing on Rob's nomination 
earlier this month. The Subcommittee on Clean Air and Nuclear 
Safety held a hearing on Mr. Kilbride's nomination last week.
    I would like to thank the Chairman of the Subcommittee, 
Senator Braun, for holding the hearing and assisting the full 
Committee in considering Mr. Kilbride's nomination. Both 
nominees are well qualified and will bring a wealth of 
experience and expertise to these important positions.
    I would like to say a few words about Rob Wallace. I have 
known Rob for over 35 years. Without question, Rob is the right 
person for the job as the Assistant Secretary for Fish, 
Wildlife, and Parks.
    Once confirmed, Rob will oversee the U.S. Fish and Wildlife 
Service and the National Park Service. His confirmation will be 
especially important because neither of these agencies have 
Senate confirmed leadership at this time. He will play a 
central role in managing fish and wildlife for the American 
people.
    Stakeholders from across the political spectrum agree, Rob 
is an outstanding choice. I urge my colleagues to support his 
nomination.
    We will also consider six bills: Senator Heinrich's bill to 
amend and reauthorize the Morris K. Udall and Stewart L. Udall 
Foundation Act; Senator Braun's Restore the Harmony Way Bridge 
Act; Senator Duckworth's Route 66 Centennial Commission Act; 
Senator Collins' Reviving America's Scenic Byways Act, with a 
substitute amendment; Senator Capito's PFAS Release Disclosure 
Act, with a substitute amendment; and Senator Booker's bill to 
transfer certain funds from the Clean Water Revolving Fund of 
the State to the Drinking Water Revolving Fund of the State.
    I would like to say a few words about the PFAS bill. We 
will report a broad bipartisan package to address pollution 
from a large class of chemicals, known as PFAS. This pollution 
is an urgent concern for many communities and States across the 
country.
    This spring, the Committee held two hearings on this issue. 
In March, we heard from top officials at EPA, as well as the 
Departments of Defense and Health and Human Services. In May, 
we heard from State water regulators, water utilities, and 
others, who are struggling to deal with these contaminants.
    The Barrasso-Carper substitute amendment to the Capito bill 
requires industrial manufacturers and users to disclose to the 
public when they release these chemicals into the environment. 
The legislation also requires EPA to set, within 2 years, a 
national primary drinking water regulation for, at a minimum, 
two of the most toxic PFAS substances.
    The Barrasso-Carper substitute amendment is identical to an 
amendment that Senator Capito, Ranking Member Carper, Senator 
Gillibrand, and I filed to the National Defense Authorization 
Act last week.
    I want to thank those members for their leadership on this 
issue. Our bipartisan package will go a long way to helping the 
Federal Government and the States combat this pollution.
    Last, we will consider 38 resolutions to approve 
prospectuses providing for General Services Administration 
leases.
    I will now turn to Ranking Member Carper for his statement.

          OPENING STATEMENT OF HON. THOMAS R. CARPER, 
            U.S. SENATOR FROM THE STATE OF DELAWARE

    Senator Carper. Thanks, Mr. Chairman.
    I want to thank the staffs and all the folks who worked 
very hard to get us ready for this day. It has been a sometimes 
frenzied effort, but I think a good one.
    We have some important items on our agenda. I am going to 
be brief as we all have other commitments today.
    Today, our Committee is set to consider a number of General 
Services Administration resolutions, five pieces of 
legislation, two nominees, and legislation to address 
widespread contamination of substances that we refer to 
affectionately as PFAS.
    I am going to start by saying that the minority is willing 
to move this large number of GSA resolutions today only because 
of GSA's recent efforts to begin providing documents that the 
minority requested as far back as the beginning of last 
Congress. I thank the Chairman and his majority staff for their 
help in motivating GSA to be more responsive to the minority's 
document requests.
    Three of the four pieces of legislation on today's agenda 
are related to our Nation's transportation system. The fourth 
piece is a bill introduced by Senator Heinrich that would 
reauthorize the Morris K. Udall and Stewart L. Udall Foundation 
Act. This bill was passed in the Senate last year, and this 
year, I am confident we can get it across the finish line.
    The fifth bill is Senator Booker's proposal to allow States 
a 1-year opportunity to use excess Clean Water State Revolving 
Loan Fund dollars to address lead contamination in drinking 
water. This bill would provide immediate relief to a number of 
States facing extreme cases of lead contamination, and I am 
proud to support Senator Booker's proposal.
    I believe the two nominees our Committee is considering 
today, Rob Wallace and William Kilbride, are both qualified and 
ready to lead at their respective agencies. Mr. Wallace has 
pledged to uphold science and bolster the expertise of the 
Interior Department career staff that he would oversee. I 
believe he is up to the challenge of providing badly needed 
leadership within the Department of the Interior.
    I look forward to welcoming Mr. Wallace to Delaware 
sometime later this year so that he can see and learn firsthand 
about our national park and wildlife refuges that make the 
First State home to so many people and visitors and species.
    Next, let me take a minute or 2 to focus on the substitute 
for Senator Capito's bill, which is a package of PFAS 
contamination legislation. Over the last couple of months, I 
have come to learn that addressing PFAS contamination is a 
particularly complicated and multi-faceted problem faced by an 
ever growing number of communities across America.
    During our hearing last month, I said that our Committee 
would continue to work hard with stakeholders to forge a 
consensus approach to address head on the PFAS problem. For the 
most part, that is what we have done. I especially want to 
thank Chairman Barrasso and the majority staff, as well as our 
own minority staff, and our colleagues, for their excellent and 
constructive work in crafting the legislative package that is 
before us today.
    This substitute requires EPA to set a drinking water 
standard for PFOS and PFOA in 2 years, while also establishing 
on ramps so the agency can create monitoring requirements and 
drinking water standards for other PFAS chemicals in the 
future.
    The substitute also immediately adds about 200 PFAS 
chemicals to the Toxic Release Inventory. By doing so, we can 
better understand the research, cleanup, and prevention that 
are needed at every level of government. Furthermore, the 
substitute includes additional bipartisan measures to require 
research, monitoring techniques, funding for drinking water 
cleanup, and guidance on how to properly dispose of PFAS.
    Notably, though, there is one critical piece of PFAS 
legislation missing from this package. That is the bill I 
introduced with Senator Capito and 30 co-sponsors earlier this 
spring that designates PFAS as hazardous substances under the 
Superfund law. This designation would require DOD to help clean 
up the PFAS contamination it has caused, and it would unlock 
EPA resources to clean up sites when no one else can do so.
    With that said, I still remain hopeful this last PFAS bill 
ultimately will be included in the Defense Authorization Act. I 
hope to have the Chairman agree to join me, along with other 
members of this Committee, as we strive to reach that goal, 
given the extensive conversations happening between our staffs, 
relevant agencies, stakeholders, and constituents who are 
affected by PFAS contamination.
    Let me close with this. When we held our first business 
meeting of this Congress back in February, I shared my hopes 
that our Committee would work to reach consensus on important 
issues, consensus that would help us strengthen protections for 
our environment and public health while enhancing economic 
growth.
    Nearly half a year later, the legislative work that we have 
achieved thus far on PFAS gives me renewed cause for hope that 
this Committee can and will continue to make further progress 
on the issues that Americans care about the most.
    With that, I look forward to a quick markup and a 
productive session.
    Thank you all for your efforts.
    Senator Barrasso. Thank you very much, Senator Carper. 
Thanks for the kind comments about the commitment of the entire 
Committee to work together on issues of bipartisan importance 
to the Nation.
    Now that enough members have arrived, I would like to move 
to a vote on the items on today's agenda. The Ranking Member 
and I have agreed to vote on two nominees, six bills, and 38 
General Services Administration resolutions en bloc by voice 
vote. Members may choose to have their votes recorded for a 
specific item in that bloc after the voice vote.
    I would like to call up first: Presidential Nomination 718, 
Rob Wallace of Wyoming to be Assistant Secretary of Fish, 
Wildlife, and Parks at the Department of the Interior; as well 
as Presidential Nomination 491, William Kilbride of Tennessee 
to be a member of the board of directors of the Tennessee 
Valley Authority; S. 1345, a bill to amend and reauthorize the 
Morris K. Udall and Stewart L. Udall Foundation Act; S. 1833, 
Restore the Harmony Way Bridge Act; S. 1014, Route 66 
Centennial Commission Act; the Cardin substitute amendment to 
S. 349, Reviving America's Scenic Byways Act; the Barrasso-
Carper substitute amendment to S. 1507, PFAS Release Disclosure 
Act; S. 1689, a bill to transfer certain funds from the Clean 
Water Revolving Fund of a State to the Drinking Water Revolving 
Fund of the State; and 38 General Services Administration 
resolutions en bloc.
    I move to approve and report Presidential Nomination 718, 
Presidential Nomination 491, S. 1345, S. 1833, S. 1014, and S. 
1689, approve the Cardin substitute amendment to S. 349 and 
report S. 349 as amended, approve the Barrasso-Carper 
substitute amendment to S. 1507, and report S. 1507 as amended, 
and approve 38 GSA resolutions en bloc.
    Is there a second?
    Senator Carper. I second.
    Senator Barrasso. All those in favor, please say aye.
    [Chorus of ayes.]
    Senator Barrasso. All those opposed, nay.
    [No audible response.]
    Senator Barrasso. In the opinion of the Chair, the ayes 
have it.
    We have approved Presidential Nomination 718, Presidential 
Nomination 491, S. 1345, S. 1833, S. 1014, S. 1689, S. 349 as 
amended, S. 1507 as amended, which were reported favorably to 
the Senate. We have approved 38 GSA resolutions.
    The voting part of this business meeting is finished. I 
would be happy now to recognize any member who wishes to make a 
statement on any of the nominations, the legislation, or the 
resolutions that we have just approved.
    Senator Whitehouse. Mr. Chairman.
    Senator Barrasso. Senator Whitehouse.
    Senator Whitehouse. I will just speak very briefly about 
Mr. Wallace.
    I was delighted to be able to vote for him. We had a 
terrific conversation, and he pledged two things to me. One, to 
work with me on the Blackstone Valley River National Historic 
Park, which is a complicated thing, because we are developing a 
park in an existing urban developed area.
    This isn't a place where you can just draw lines on a map 
and say everything inside is park. So we are going to need more 
attention from his Service to get that completed. He was 
terrific about that.
    The second point we talked about is that even though the 
organization he works for is called the Department of the 
Interior, this is a country that has more than interior. It 
also has edges, and the edges are our coasts, and our coasts 
are being overlooked by his department. He has agreed to sit 
down with a bipartisan group of coastal Senators and begin a 
conversation as to how coastal communities can be treated with 
more attention and more fairly by his department.
    Thank you very much.
    Senator Booker. Mr. Chairman.
    Senator Barrasso. Senator Capito asked to be recognized.
    Senator Capito. Go ahead, Senator.
    Senator Booker. That is very generous of you, Senator 
Capito.
    I just want to say thank you to the Chairman and Ranking 
Member. You have been tremendous. There are literally thousands 
of children and families in the State of New Jersey who, 
because of your partnership with me, will now have the 
opportunity to have the lead problems addressed.
    It really is making a real difference. This is a very, very 
good day for our State and I know others as well. I want to 
express my gratitude.
    Thank you, Senator Capito.
    Senator Barrasso. Thank you, Senator Booker.
    Senator Capito.
    Senator Capito. Thank you, Mr. Chairman.
    I want to thank Ranking Member Carper, Senator Gillibrand, 
and the staff, too, for the work that we have done on the PFAS 
legislative package that we see today, but also the work that 
was done to get it into an amendment for the NDAA.
    I did talk with the Chairman and thanked him for his 
efforts as well, the Chairman of the Armed Services Committee.
    I am proud to lead this bipartisan consensus package. It is 
very important to me.
    You have heard me talk about two of the communities in my 
State, Parkersburg and Martinsburg, who have endured a history 
of PFAS contamination. We are very concerned about this.
    This will hold emitters to account, will provide more 
transparency, and ensure that Federal agencies, communities, 
and the public can respond to emissions. Sunlight being the 
best disinfectant, I think this accountability is really good.
    The Manager's Amendment also adds a refined version of the 
legislation I introduced with Senator Gillibrand to direct the 
EPA to impose safe drinking water standards for PFOA and PFAS 
and other PFAS compounds as the science merits.
    We have included language ensuring that the EPA can assist 
rural water systems. This was a concern that came out in our 
hearing, whether rural water systems could meet the challenges 
of testing, both financially and with the technical expertise. 
This will help them so they can meet these standards.
    It is regrettable to me that the EPA has been dragging its 
feet on this issue to the extent that Congress is compelled to 
act, but ensuring the public's faith in their drinking water is 
vitally important. This also provides for the facilitation of 
research into PFAS and effects on human health.
    There still remains much to be done. I look forward to 
continuing work with my colleagues, Senator Carper mentioned 
this, on getting to an agreement on addressing legacy 
contamination at industrial and military sites around the 
country through the CERCLA and Superfund programs.
    I believe we need to prioritize development of new 
mitigation technologies, including destroying PFAS contaminated 
material in a responsible way that does not change the medium 
of contamination from soil and water to the air. This will 
require new sampling methodologies and standards for the 
sophisticated processes needed to break that carbon fluorine 
bond that makes these substances useful for commerce but 
persistent in the environment.
    The public needs the confidence that Washington is working 
to keep their water, soil, and air safe while protecting their 
economic interests and standards of living. I am very pleased 
this is in here.
    Thank you very much for your dedication and help.
    Senator Barrasso. Thank you, Senator Capito.
    Senator Cardin.
    Senator Cardin. Mr. Chairman, I want to thank you and 
Senator Carper in regard to moving the Reviving American Scenic 
Byways Act that I introduced with Senator Collins, giving us an 
opportunity to restart this highly beneficial, grassroots 
program that has been dormant since 2009.
    I also want to thank you for the courtesies in removing 
three of the prospectuses that were on the list today, one 
dealing with the Bureau of Fiscal Services at the United States 
Department of Treasury that we are working in regard to certain 
employee issues, and then also removing the consolidated 
activities, various buildings, to get certain understandings as 
to the restrictions on the use of those funds.
    Again, thank you for the courtesy of giving us the 
opportunity to clarify those prospectuses.
    Senator Barrasso. Thank you.
    Senator Braun.
    Senator Braun. Thank you, Mr. Chairman and Ranking Member 
Carper.
    The Harmony Way Bridge, which has been closed since 2012, 
is included in this package. It is the last remaining Federal 
Bridge Commission responsibility, created in 1941 to manage 
basically local bridges.
    The Commission wasn't up to the task. Over time, the bridge 
fell into disrepair.
    The community of New Harmony, it is vital to them. It gives 
them the flexibility now to move forward. The Restore the 
Harmony Way Bridge Act is a prime example of bipartisan 
cooperation that can happen in DC when leaders come together to 
solve problems affecting constituents. It eliminates unneeded 
Federal programs and allows the community of New Harmony to 
make decisions that are in their own best interest.
    Thank you again for the support, and I look forward to this 
legislation making it to the full Chamber.
    Thank you so much.
    Senator Barrasso. Thank you.
    Senator Sullivan.
    Senator Sullivan. Thank you, Mr. Chairman.
    I just want to commend you, the Ranking Member, and Senator 
Capito, in particular, and finally all of us getting our arms 
around this PFAS issue which I think is going to occupy a lot 
of our time, but I think it is a good beginning on what is in 
this legislation, particularly with regard to loans for 
communities, forbearance for the EPA with regard to penalties 
on water systems in municipalities and localities.
    As Senator Capito mentioned, the next step we need to start 
focusing on is the CERCLA issue and the responsibility in 
communities, particularly where we have large military bases, 
like in my State. I think we are off to a good start, but I 
want to commend both of you, and her and the other members, 
Democrats and Republicans, on this Committee for that important 
legislation. Hopefully we will see it on the floor soon.
    Thank you.
    Senator Barrasso. Thank you, Senator Sullivan.
    Senator Carper.
    Senator Carper. Mr. Chairman, I enjoy music. Every now and 
then I hear a song that seems particularly appropriate. I was 
listening to my favorite radio station driving to the train 
station this morning and I heard an old Chicago song. It 
started off, ``Only the beginning.'' It is a great song.
    I think we have made good progress here today. As the 
Senator says, this is only the beginning. We still have work to 
do, on the challenges that you face in Alaska with respect to 
PFAS contamination and the huge cleanup responsibilities in 
almost every State. Almost every State can tell us some more 
stories. We need to continue to work. It is a good start, but 
it is only the beginning.
    Thank you.
    Senator Barrasso. I thought you were going to sing the 
Chicago song ``Does Anybody Really Know What Time It Is?''
    [Laughter.]
    Senator Barrasso. We could sing it here, but we will not 
because instead, I am going to ask unanimous consent that we 
not sing, but that the staff have the authority to make 
technical and conforming changes to each of the matters 
approved today.
    With that, our business meeting is concluded.
    [Whereupon, at 9:52 a.m., the business meeting was 
concluded.]
    [Legislation submitted for the record follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    [Additional material submitted for the record follows:]
    
 [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                                 [all]
</pre></body></html>
